HHS/OIG-Audit--"Follow-on Review of the Office of Inspector General
Audit of Title IV-E Foster Care Eligibility in California, (A-09-98-00075)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-on Review of the Office of Inspector General Audit of Title IV-E
Foster Care Eligibility in California," (A-09-98-00075)
February 12, 1999
Complete Text of Report is available in PDF format
(706 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
A prior audit disclosed that California claimed an estimated $103.4 million
($51.7 million Federal share) for ineligible and improper foster care maintenance
payments during the 3-year period ending September 30, 1991. A financial adjustment
was not recommended at that time due to a moratorium imposed by the Congress
on seeking repayments of Federal funds under the title IV-E program. The moratorium
has now expired, and the State has provided supplemental information to the
Administration for Children and Families (ACF) regarding the previous questionable
cases. At the request of ACF, we have performed a follow-on review of the information
submitted by the State. The review disclosed that the amount inappropriately
claimed now totals approximately $78 million ($39 million Federal share). We
are recommending a financial adjustment for the $39 million.